("'' 1­    DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                         Office of Inspector General
                                                                                                         Offices of Audit Services



"""~                                                                                                     Region VII
                                                                                                         601 East 12th Street
                                                                                                         Room 284A
       October 2, 2008                                                                                   Kansas City, Missouri 64106


       Report Number: A-07-08-04131

       Mr. Guy Ringle

       Senior Vice President

       Medicare Division

       Wisconsin Physicians Service

       1717 West Broadway

       Madison, Wisconsin 53713


       Dear Mr. Ringle:

       Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
       General (OIG), final report entitled "Review of Wisconsin Physicians Service Insurance
       Corporation High-Dollar Payments for Medicare Part B Claims Processed by Wheatlands
       Administrative Services, Inc" for the Period January 1,2003, Through December 31,2005."
       We will forward a copy of this report to the HHS action official noted on the following page for
       review and any action deemed necessary,

       The HHS action official will make final determination as to actions taken on all matters reported.
       We request that you respond to this official within 30 days from the date of this letter. Your
       response should present any comments or additional information that you believe may have a
       bearing on the final determination.

       Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
       Public Law 104-231, OIG reports generally are made available to the public to the extent the
       information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
       will be posted on the Internet at http://oig.hhs.gov.

       If you have any questions or comments about this report, please do not hesitate to call me, or
       contact Raylene Mason, Audit Manager, at (816) 426-3203 or through e-mail at
       Raylene.Mason(@,oig.hhs.gov. Please refer to report number A-07-08-04131 in all
       correspondence.

                                                    Sincerely,


                                                         .r?#..~~~.~~
                                                  ~;;-:-."~
                                                      .....
                                                         ,

                                                              ."
                                                              I
                                                              !
                                                                  I    ,f.



                                                                           .   ",
                                                                                    '
                                                                                        •

                                                                                                    ">
                                                                                                -;//\
                                                                      ,.
                                                    Patrick J,'Cogley '-.-__.-'
                                                                                ---         . --'        r-"
                                                                                                         ,­
                                                    Regional Inspector General
                                                     for Audit Services


       Enclosure
Page 2 - Mr. Guy Ringle


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12 th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



    REVIEW OF WISCONSIN
PHYSICIANS SERVICE INSURANCE
  CORPORATION HIGH-DOLLAR
PAYMENTS FOR MEDICARE PART B
    CLAIMS PROCESSED BY
 WHEATLANDS ADMINISTRATIVE
SERVICES, INC., FOR THE PERIOD
  JANUARY 1, 2003, THROUGH
     DECEMBER 31, 2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-08-04131
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insllrance for people age 65 and over and those \vho are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). CMS guidance requires providers to bill accurately and to report
units of service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier Claims System and CMS's Common Working
File to process Part B claims. These systems call detect certain improper payn1ents during
prepayment validation.

During our audit period (calendar years (CY) 2003 through 2005), Wheatlands Administrative
Services, Inc. (Wheatlands), was the Medicare Pali B carrier serving Medicare providers in
Kansas, Nebraska, and western Missouri. During this period, Wheatlands processed
approximately 50.5 million Part B claims, 348 of which had payments of$10,000 or more. We
considered these high-dollar claims to be at risk for overpayment.

On March 1,2008, CMS awarded the carrier contract for Kansas, Nebraska, and western Missouri
to Wisconsin Physicians Service Insurance Corporation (WPS). Although Wheatlands processed
the Medicare Part B claims for the audit period we reviewed, WPS has since assumed
responsibility as the Medicare Part B carrier serving Medicare providers in Kansas, Nebraska, and
western Missouri. l'herefore, we are issuing our report to WPS because (a) Wheatlands no longer
has access to the Medicare Part B processing system and (b) as the carrier, WPS has assumed the
responsibility to ensure that the claims have been corrected.

OBJECTIVE

Ollr objective was to determine whether higl1-dollar Medicare claims that Wheatlands processed
and paid to Kansas, Nebraska, and western Missouri Part B providers were appropriate.

SUMMARY OF FINDING

Of the 348 high-dollar claims that Wheatlands paid to providers, 335 were appropriate. However,
Wheatlands overpaid providers $105,940 for the remaining 13 payments. Providers refunded 6 of
the overpayments, totaling $53,857, prior to our fieldwork. However, 7 overpayments, totaling
$52,083, remained outstanding as of the time of our fieldwork.

Wheatlands made the overpayn1ents because the providers incorrectly claimed excessive units of
service or because Wheatlands applied incorrect payment rates for procedure codes. In addition,
the Medicare clain1 processing systems did not 11ave sufficient edits in place during CYs 2003
through 2005 to detect and prevent payments for these types of erroneous claims.
RECOMMENDATIONS

We recommend that WPS:

   •	 recover the $52,083 in overpayments,

   •	 use the results of this audit in its provider education activities, and

   •	 identify and recover any additional overpayments made for high-dollar Part B claims paid
      after CY 2005.

AUDITEE COMMENTS

In written comments on our draft report, WPS agreed with our findings and recommendations.
WPS's comments are included in their entirety as the Appendix.




                                                 11
                            TABLE OF CONTENTS


INTRODUCTION                                                 1


    BACKGROUND                                               1

        Med.icare Part B Cal'"riers                          1

        Wisconsin Physicians Service Insurance Corporation   1

        "Medically Unlikely" Edits                           1


    OBJECTIVE, SCOPE, AND METHODOLOGY                        2

         Objective                                           2

         Scope                                               2

         Methodology                                         2


FINDINGS AND RECOMMENDATIONS                                 3


    MEDICARE REQUIREMENTS                                    3


    INAPPROPRIATE HIGH-DOLLAR PAYMENTS                       3


    RECOMMENDATIONS                                          4


    AUDITEE COMMENTS                                         4


APPENDIX


    AUDITEE COMMENTS





                                       III
                                               INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those wl10 are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Before October 1,2005, section 1842(a) of the Act autl10rized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by physicians and medical suppliers
(providers). 1 Carriers also review provider records to ensure proper payment and assist in
applying safeguards against unnecessary use of services. To process providers' claims, carriers
cllrrently use the Medicare Multi-Carrier Claims System and CMS's Common Working File.
Tl1ese systems can detect certain improper payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number
of times that a service or procedure was performed. During calendar years (CY) 2003 through
2005, providers nationwide submitted over 2.3 billion Medicare Part B claims to carriers. Of
these, 29,022 claims resulted in payments of $10,000 or more (high-dollar payments). We
consider such claims to be at high risk for overpayment.

Wisconsin Physicians Service Insurance Corporation

During our audit period, Wheatlands Administrative Services, Inc. (Wheatlands), was the
Medicare Part B carrier serving Medicare providers in Kansas, Nebraska, and western Missouri.
During this period, Wheatlands processed approximately 50.5 n1illion Part B claims that had
payments of approximately $4 billion. Of these claims, Wheatlands processed 348 Part B claims
that had high-dollar payments. On March 1, 2008, CMS awarded the carrier contract for Kansas,
Nebraska, and western Missouri to Wisconsin Physicians Service Insurance Corporation (WPS).

"Medically lJnlikely" Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service edits
referred to as "medically unlikely edits." These edits are designed to detect and deny unlikely
Medicare claims on a prepayn1ent basis. According to the "Medicare Program Integrity
Manual," Publication 100-08, Transmittal 178, Change Request 5402, medically unlikely edits
test claim lines for the same beneficiary, Healthcare Common Procedure Coding System code,
date of service, and billing provider against a specified number of units of service. Carriers n1ust
deny the entire claim line when the units of service billed exceed the specified number.




IThe Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173, which became
effective on October 1, 2005, amended certain sections of the Act, including section 1842(a), to require that Medicare
administrative contractors replace carriers and fiscal intermediaries by October 2011.
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare clainls that Wlleatlands processed
and paid to Kansas, Nebraska, and western Missouri Part B providers were appropriate.

Scope

We reviewed the 348 high-dollar claims, totaling $8,503,220, that Wheatlands processed during
CYs 2003 through 2005.

We limited our review of Wheatlands' internal controls to those applicable to the 348 claims
because our objective did not require an llnderstanding of all internal controls over the submission
and processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from May 2007 through July 2008. Our fieldwork included contacting
Wheatlands, located in Topeka, Kansas, and the providers that received the payments for the high­
dollar claims.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file to identify Medicare Part B claims with high­
      dollar payments;

   •	 reviewed available Common Working File claim histories for claims with high-dollar
      payments to determil1e whether the claims had been canceled and superseded by revised
      claims or whether payments remained outstanding at the time of our fieldwork;

   •	 coordinated our claim review with Wheatlands;

   •    contacted providers to determine whether the high-dollar claims were billed correctly;

   •    obtained documentation from the providers confirming all correct claims identified; and

   •	 provided supporting documentation for all the incorrect claims identified to WPS on
      August 25, 2008.

Although Wheatlands processed the Medicare Part B claims for the audit period we reviewed,
WPS has since assumed responsibility as the Medicare Part B carrier serving Medicare providers


                                                 2

in Kansas, Nebraska, and western Missouri. Therefore, we are issuing our report to WPS because
(a) Wheatlands no longer has access to the Medicare Part B processing systen1 and (b) as the
carrier, WPS has assun1ed the responsibility to ensure that the claims have been corrected.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Of the 348 high-dollar claims that Wheatlands paid to providers, 335 were appropriate. However,
Wheatlands overpaid providers $105,940 for the remaining 13 payments. Providers refunded 6 of
the overpayments, totaling $53,857, prior to our fieldwork. However, 7 overpayments, totaling
$52,083, remained outstanding.

Wheatlands made the overpayments because the providers incorrectly claimed excessive units of
service or because Wheatlands applied incorrect payment rates for procedure codes. In addition,
the Medicare claim processing systems did not have sufficient edits in place during CYs 2003
through 2005 to detect and prevent payments for these types of erroneous claims.

MEDICARE REQUIREMENTS

The CMS "Carriers Manual," Publication 14, Part 2, section 5261.1, requires that carriers
accurately process claims in accordance with Medicare laws, regulations, and instructions.
Section 5261.3 of the manual requires carriers to effectively and continually analyze "data that
identifies aberrancies, emerging trends and areas of potential abuse, overutilization or
inappropriate care, and ... on areas where the trust fund is most at risk, i.e., highest volume and/or
highest dollar codes."

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

For 5 overpayments, totaling $45,135, providers incorrectly billed Wheatlands for excessive units
of service:

     •	   One provider billed 3 units of service when it should have billed 1 unit, resulting in an
          overpayment of $1 ,482.

     •	   One provider billed 50 units of service when it should have billed 1 unit, resulting in an
          overpayment of $12,526.

     •	   One provider billed 6 units of service when it should have billed 1 unit, resulting in an
          overpayment of $9,975.




                                                  3

      •	 One provider billed 45 units of service when it should have billed 7 units, resulting in an
         overpayment of $12,946.

      •	 One provider billed 4 units of service when it should have billed 1 unit, resulting in an
         overpayment of $8,206.

For the remaining 2 overpayments, Wheatlands applied incorrect payment rates for hemophilia
drugs, procedure codes J7190 and J7192. As a result, Wheatlands paid the provider $36,208 when
it should have paid $29,260, an overpayment of$6,948. We could not determine the source of the
payment rates used. Although the provider agreed that it was overpaid, it had not refunded the
overpayment at the time of our fieldwork.

Providers attributed the submission of claims with incorrect units of service to clerical errors made
by their billing staffs. In addition, during CYs 2003 through 2005, the Medicare Multi-Carrier
Claims Systen1 and the CMS Common Working File did not have sufficient prepayment controls
to detect and prevent inappropriate payments resulting from claims for excessive units of service.
Instead, CMS relied on providers to notify carriers of overpayments and on beneficiaries to review
their "Medicare Sumn1ary Notice" and disclose any provider overpayments. 2

RECOMMENDATIONS

We recommend that WPS:

    •	 recover the $52,083 in overpayments,

    •	 use the reslLlts of this audit in its provider education activities, and

    •	 identify and recover any additional overpayments made for high-dollar Part B claims paid
       after CY 2005.

AUDITEE COMMENTS

111 written commel1ts on our draft report, WPS agreed with our findings and recommendations.
WPS's comments are included in their entirety as the Appendix.




2The carrier sends a "Medicare Sun1n1ary Notice" to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount due
from the beneficiary.


                                                        4
APPENDIX

                                                                                                                       APPENDIX
                                                                                                                        Page 1 of2


        CAlsl
                                                                                                  Medicare
                                                                                                         September 26, 2008


Ms. Raylene Mason
Regional Office Inspector General, Office of Audit Svcs.
60 I East 12\h Strect
Kansas City) Missouri 64106

Re: eIN A-07-08-04131


Dear Ms. Mason,

This correspondence is in response to the Office of the Inspector General 1 s review and report of
excessive Medicare payments for Wheatlands Administrative Services! Inc" for tbe perjod of January It
2003 through DtXember 31! 2005.

As the Medicare Administrative Contractor (MAC) for Jurisdiction 5 Wisconsin Physicians Service
                                                                                      J


(WPS) assumed responsibility for Kansas Medicare claims on March It 2008.

WPS has revievJed the clabn samples identified for the seven Medicare Beneficiarics. We concur with
the OIG overpayment rationales on all seven cases. Wheatland's Administrative Services overpaid on
these said claims due to provider billing errors on excessive units of service,

Please find beloy,r listed WPS response to each individual recommendation:

       Recommendatioll #1 Reco\'er the $52, 083 in overpaynlents

              WPS agrees with this recommendallon. We will identify and pursue any outstanding
              overpayments. To-date partial refunds have been received on three cases in the amount
                                           J

              of $31, 922.37.

       Recommendation #2 Use the Results of Audit Provider Educational Activities

              WPS agrees \vith this recommendation and will explore protocols for collecting and
              cvaluating data and provide educational guidance to Medicare Providers underscoring the
              importance 0 f th e accurJ.te bi lling practices.

       Recommendation #3 Identify and Recover Any AddUional Overpayments Medicare Part B
       High-Dollar Claims paid after CY 2005

       WPS agrees with thi~ reconlmendatlon. We wiU make every effort to recover any additional
       overpayments identified for High DolJar Medicare Part B claims on the basis of incorrect
       provider billings.


                     Wisconsin Physlc2an$ SetVlce Insurance COtpor'alior- s.ervil'lg as a CMS Medicare COI'ltradOl'
                     P.O. Boo 1781. Madison. WI 53701 • Phooe 608-221-4711
                                                                                                  APPENDIX

                                                                                                   Page 2 of2




Ms. Raylene Mason                                                                  September 26, 2008
eIN A·07-08-04131                                                                        Page 2


Thank you for the opportunity to respond to this report If you have any questions, please contact me.

Respect fully   t




Kcl y     ung
Me are PaJi B
Contract Coordination Manager
Wisconsin Physicians Service (WPS)
Email: Kelly.Hartung@wpsic.com
Phone: (618) 998-5196 Fax: (6l8) 998-5209


Cc :   Rodney G. Brown, OIG
